           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Consolidated Financial                                          Date:    November 15, 2006
           Statements for Fiscal Years 2006 and 2005, DOT
           Report Number: FI-2007-010
  From:    Calvin L. Scovel III                                                           Reply to
                                                                                          Attn. of:   JA–20
           Inspector General

    To:    The Secretary

           I respectfully submit the Office of Inspector General report on the Department of
           Transportation (DOT) Consolidated Financial Statements for Fiscal Years (FY)
           2006 and 2005 (see Attachment). This year, our audit concluded that DOT’s
           consolidated financial statements are fairly presented, in all material respects, in
           conformity with generally accepted accounting principles, with one exception.
           That exception concerns the FY 2006 Construction in Progress (CIP) balance,
           which is a subcomponent of the Property, Plant, and Equipment line item on the
           Department’s balance sheet.

           KPMG LLP, under contract to us and under our supervision, audited the Federal
           Aviation Administration’s (FAA) financial statements and rendered a qualified
           opinion because deficiencies in FAA’s accounting for CIP prevented FAA from
           providing adequate support to verify that reported CIP balances were reliable. 1
           Because FAA’s property, including CIP, represents about 95 percent of the
           Property, Plant, and Equipment line item on the Department’s consolidated
           balance sheet, the Department’s consolidated financial statements must be
           similarly qualified.

           We recognize that you, the Department’s Chief Financial Officer, and other
           Department leaders are concerned that deficiencies in FAA’s CIP accounting
           process resulted in this qualification to the Department’s consolidated financial
           statement.    The Department’s leaders have demonstrated a longstanding

           1
               FAA uses a complicated process to track and account for billions of dollars in capital investments. The majority of
               these investments are needed to modernize the air traffic control system—a critical national infrastructure. This
               multiyear development effort involves the extensive use of advanced technologies. While under development, all
               spending must be carefully tracked and recorded in the CIP account. When commissioned into use, these investments
               must be reclassified as in-service assets, which are then subject to depreciation.
                                                                                2


commitment to improving financial management in the Department and in each
Operating Administration. As reflected in our prior financial statement audit
reports, that commitment has substantially improved the Department’s ability to
track and properly report financial results. We also recognize your history of
strong support for improved financial management processes, as reflected by the
critical and effective leadership that you demonstrated in correcting longstanding
financial issues in the Federal Highway Administration (FHWA) during your
tenure as the Administrator.

FAA’s process for accounting for CIP is a longstanding concern. Auditors
reported material weaknesses concerning FAA’s Property, Plant, and Equipment
account balances, including inaccurate and untimely CIP transaction processing,
annually from FY 1992 through FY 2002. Although FAA substantially corrected
the deficiencies by FY 2003, the problems recurred during FY 2004 and
subsequent years. At that time, FAA replaced key CIP manual processes with an
automated project accounting module but did not implement adequate controls and
oversight to ensure that the new process worked effectively.

In FY 2005, KPMG reported a material weakness related to deficiencies in FAA’s
ability to process transactions and reconcile account balances in a timely manner,
including its ability to ensure that CIP transactions were timely and accurately
recorded when assets were placed in service. Although FAA management agreed
to correct those deficiencies during FY 2006, the corrective actions were not
implemented effectively. As a result, the CIP balance presented to KPMG in
August 2006 contained material errors, and FAA was not able to complete its
review of CIP or to properly state the CIP balance as of September 30, 2006.
Consequently, FAA management was unable to represent to KPMG that the CIP
balance, reported to be $4.7 billion, was fairly stated. Accordingly, KPMG could
not complete its audit of CIP balances. KPMG also identified CIP process
deficiencies as a material weakness.

The lack of controls over CIP-related transactions was one of several concerns
included in last year’s material weakness reporting. This year, KPMG reported
that, except for CIP-related processing, FAA has taken adequate corrective actions
to ensure timely recording of obligations, supporting advances and prepayments,
clearing suspense accounts, reconciling budgetary to proprietary accounts, and
reconciling subsidiary to general ledger account balances. If FAA stays focused
on fixing CIP-related operations, it should be able to produce the same results in
FY 2007. However, we are concerned that this correction effort may become
diverted.

Responding to this year’s report, FAA hired a contractor and committed to taking
aggressive action to ensure that capitalized assets are properly valued and
transactions are recorded in a timely manner by improving policies and
                                                                                    3


procedures, enhancing communications between program officials and accounting
personnel, and conducting a comprehensive evaluation of CIP balances to make
appropriate accounting adjustments. However, FAA has first directed the
contractor to analyze a sample of CIP assets in order to generate a more reliable
estimate of the CIP balance as of September 30, 2006. FAA then intends to
provide this additional information to KPMG, requesting that KPMG continue
auditing the FY 2006 balance and issue a new report, sometime during FY 2007,
that provides a restatement on FAA’s FY 2006 financial statements. In our view,
diverting resources to generate a new estimate of the FY 2006 CIP balance and to
reissue the FY 2006 financial statement audit report will further delay efforts to fix
the CIP process deficiencies and will increase the risk that FAA will again not be
able to correct its underlying material weakness during FY 2007.

Successfully implementing these corrective actions in FY 2007 is critical for two
reasons. First, FAA has stated that its goal is to implement sound financial
management processes. This must include establishing stronger processes to
account for its property. In doing so, FAA will be in a substantially stronger
position to correct the material weakness and obtain a clean opinion on its
financial statements in FY 2007.

Second, the FAA deficiencies may adversely affect DOT’s ability to meet the
Office of Management and Budget’s FY 2007 internal control requirements under
Circular A-123—the Federal version of the Sarbanes/Oxley Act. Circular A-123
requires the Department’s leaders to implement adequate management and
financial controls to deliver the best value with the resources entrusted to the
agency. At the end of FY 2007, the Department will be required, for the first time,
to provide specific assurance that it has adequate controls to provide reasonable
assurance that property is accounted for properly. The adequacy of FAA’s
controls will be key to whether the Secretary will be able to provide that
assurance.

The Department’s Chief Financial Officer also recognizes the importance of
correcting the underlying process deficiencies. She told us that her office will now
closely monitor FAA’s efforts to correct CIP process deficiencies to ensure that
FAA implements timely and effective corrective actions. Given the importance of
correcting these deficiencies, we agree that this is appropriate.

Turning now to the audit of the Highway Trust Fund (HTF) financial statements,
KPMG rendered an unqualified (clean) opinion this year—the eighth consecutive
clean opinion since FY 1999. However, FHWA continued to experience problems
preparing reliable draft HTF financial statements in a timely manner, primarily
due to difficulties analyzing and consolidating underlying data. To illustrate, the
HTF finances operations in multiple DOT Operating Administrations: FHWA, the
Federal Transit Administration, the National Highway Traffic Safety
                                                                                   4


Administration, the Federal Motor Carrier Safety Administration, the Federal
Railroad Administration, and the Research and Innovative Technology
Administration. In addition, 17 other agencies outside of DOT receive HTF
appropriations through FHWA. Together, these agencies disbursed about
$37 billion in Federal funds during FY 2006. To compile the HTF statements,
FHWA had to monitor fund transfers, collect reliable information about how funds
were used from all of these Operating Administrations and outside agencies, and
reconcile related account balances. KPMG’s audit report also identified
deficiencies in other accounting operations and financial oversight that make it
more difficult for FHWA to generate timely and reliable HTF financial statements.

Our report identifies two financial management matters that KPMG and we
consider material and several other reportable conditions that are significant but
not material. The material matters are that:

• FAA must take immediate action to correct the underlying process deficiencies
  that limit its ability to properly account for CIP-related transactions; and

• FHWA and other HTF Operating Administrations must enhance their financial
  accounting operations and oversight in several areas, such as better control
  over journal entries to process accounting adjustments, more timely correction
  of abnormal account balances, improved coordination with non-DOT agencies
  that receive HTF appropriations through FHWA, and validation of the accrual
  methodology used to estimate unpaid grant expenses.

Generating timely, reliable, and useful financial information is no small task and
requires continued senior management attention. DOT is a complex organization
that is accountable for substantial resources. DOT’s FY 2006 financial statements
show total assets of $65 billion, liabilities of almost $14 billion, program costs of
nearly $62 billion, and available financial resources of more than $112 billion. In
FY 2006, DOT received appropriations (revenue) of $61 billion. More than
$49.5 billion (about 81 percent) of DOT’s revenue sources came from two trust
funds, the HTF and the Airport and Airway Trust Fund.

We provided a draft of this report to the DOT Assistant Secretary for Programs
and Budget/Chief Financial Officer, who concurred with its findings and agreed to
implement its recommendations. We appreciate the cooperation and assistance of
DOT and KPMG representatives. If we can answer any questions, please call me
at (202) 366-1959; Ted Alves, Principal Assistant Inspector General for Auditing
and Evaluation, at (202) 366-1992; or Rebecca Leng, Assistant Inspector General
for Financial and Information Technology Audits, at (202) 366-1496.

Attachment
                                                                                                Attachment
                                                                                               Page 1 of 24

                  DEPARTMENT OF TRANSPORTATION
           INSPECTOR GENERAL’S INDEPENDENT AUDIT REPORT
               ON THE DEPARTMENT OF TRANSPORTATION
                CONSOLIDATED FINANCIAL STATEMENTS
                    FOR FISCAL YEARS 2006 AND 2005


To the Secretary

The Department of Transportation (DOT) Office of Inspector General (OIG)
audited the DOT Consolidated Financial Statements for the years ended
September 30, 2006, and September 30, 2005. In our audit, “DOT Consolidated
Financial Statements for Fiscal Years 2006 and 2005,” we found:

• Except for the accuracy and completeness of the Construction in Progress
  (CIP) account, financial statements are fairly presented, in all material respects,
  in conformity with generally accepted accounting principles.

• Two material internal control weaknesses: timely processing of transactions
  and accounting for the Federal Aviation Administration (FAA) CIP account;
  and financial management, reporting, and oversight for the Highway Trust
  Fund (HTF) agencies. 2

• Seven reportable conditions: reporting of earmarked funds for the Federal
  Transit Administration, financial system controls, DOT’s information security
  program, reconciling intragovernmental transactions, deobligating unneeded
  funds in the HTF agencies, FAA grants management, and FAA contract
  management.

• Three instances of noncompliance with laws and regulations: the Federal
  Financial Management Improvement Act of 1996 (FFMIA), the Anti-
  Deficiency Act, and the Improper Payments Information Act of 2002.

• Financial information in the Management Discussion and Analysis was
  materially consistent with the financial statements.

• Supplementary and stewardship information, and other accompanying
  information, was materially consistent with management representations and
  the financial statements.



2
    Federal Highway Administration, National Highway Traffic Safety Administration, Federal Transit Administration,
    Federal Railroad Administration, Federal Motor Carrier Safety Administration, and the Research and Innovative
    Technology Administration.
                                                                      Attachment
                                                                     Page 2 of 24

We performed our work in accordance with Generally Accepted Government
Auditing Standards and Office of Management and Budget (OMB) Bulletin 06-03,
“Audit Requirements for Federal Financial Statements.” The following sections
discuss these conclusions. Our audit objectives, scope, and methodology can be
found in Exhibit A. We believe that our audit provides a reasonable basis for our
opinion.

A. QUALIFIED OPINION ON FINANCIAL STATEMENTS
In FY 2005, KPMG reported a material weakness related to deficiencies in FAA’s
ability to process transactions and reconcile account balances in a timely manner,
including its ability to ensure that CIP transactions were promptly and accurately
recorded when assets were placed in service. Although FAA management agreed
to correct those deficiencies during FY 2006, the corrective actions were not
implemented effectively. As a result, the CIP balance presented to KPMG in
August 2006 contained material errors, and FAA was not able to develop a reliable
and supportable CIP balance prior to the issuance of DOT’s FY 2006 Performance
and Accountability Report. Accordingly, KPMG could not complete its audit of
CIP balances. FAA’s CIP balance, which is included as a component of the
Property, Plant, and Equipment line item in footnote number 9 on the balance
sheet, was reported to be $4.7 billion as of September 30, 2006. Because FAA’s
Property, Plant, and Equipment balance represents 95 percent of the Department’s
property as of September 30, 2006, potential errors in FAA’s CIP balance could
have a material impact on the Department’s financial statement.

In our opinion, except for the FY 2006 CIP account balance (a component of
Property, Plant, and Equipment on DOT’s consolidated financial statements), the
DOT consolidated financial statements, including the accompanying notes, present
fairly, in all material respects, in conformity with generally accepted accounting
principles, the DOT assets, liabilities, and net position; net costs; changes in net
position; budgetary resources; and reconciliation of net costs to budgetary
obligations as of September 30, 2006, and September 30, 2005, and for the years
then ended. This qualification occurred because, as discussed in the paragraph
above, material adjustments to the CIP balance would be likely had FAA
management completed its review of CIP transactions and had we been able to
apply sufficient procedures to complete our audit.

Under contract with OIG and under our supervision, KPMG audited the financial
statements of FAA as of and for the years ended September 30, 2006, and
September 30, 2005. KPMG qualified its opinion on the FY 2006 FAA financial
statements because of concerns over the accuracy of the CIP account and rendered
an unqualified opinion on the FY 2005 FAA financial statements. KPMG also
audited the financial statements of the HTF as of and for the year ended
                                                                       Attachment
                                                                      Page 3 of 24

September 30, 2006, and rendered an unqualified opinion on the HTF financial
statements. Clifton Gunderson, LLP, previously audited and rendered an
unqualified opinion on the financial statements of the HTF as of and for the year
ended September 30, 2005. We performed quality control reviews of the work
performed by KPMG and Clifton Gunderson and relied on their results in
performing our work on the FY 2006 and FY 2005 DOT consolidated financial
statements.

Also, as discussed in financial statement footnote numbers 1 and 18, DOT adopted
the provisions of Statement of Federal Financial Accounting Standards 27,
“Identifying and Reporting Earmarked Funds,” effective October 1, 2005. As
discussed in financial statement footnote numbers 1 and 21, the accompanying
financial statements reflect actual excise tax revenues deposited in the HTF and
the Airport and Airway Trust Fund through March 31, 2006, and excise tax
receipts estimated by the Department of the Treasury Office of Tax Analysis for
the two quarters ended June 30, 2006, and September 30, 2006.

B. CONSIDERATION OF INTERNAL CONTROLS
In planning and performing our audit, we considered DOT’s internal controls over
financial reporting and compliance with laws and regulations. We do not express
an opinion on internal controls and compliance because the purpose of our work
was to determine our procedures for auditing the financial statements and to
comply with OMB Bulletin 06-03 audit guidance, not to express an opinion on
internal controls.

For the controls we tested, we found two material weaknesses. A material
weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce, to a relatively low level, the risk that
errors, fraud, or noncompliance that would be material to the financial statements
may occur and not be detected promptly by employees in the normal course of
performing their duties.

Our work identified seven reportable conditions in internal controls. Reportable
conditions in internal controls, although not considered material weaknesses,
represent significant deficiencies in the design and operation of internal controls
that could adversely affect the ability of DOT to meet its internal control
objectives. Our internal control work would not necessarily disclose all material
weaknesses or reportable conditions.
                                                                     Attachment
                                                                    Page 4 of 24

MATERIAL WEAKNESSES
The following sections describe the material weaknesses that we identified.

Timely Processing of and Accounting for the FAA Construction in
Progress Transactions
In FY 2005, KPMG reported a material weakness related to deficiencies in FAA’s
ability to process transactions and reconcile account balances in a timely manner.
The account most affected was the CIP component of the Property, Plant, and
Equipment (PP&E) line item. To illustrate, in order to prepare reliable financial
statements, FAA had to commit substantial resources to properly categorize
$1.1 billion of CIP transactions during the last month of the fiscal year and
$180 million during the first 2 weeks after the fiscal year ended.

KPMG’s FY 2005 audit report recommended that FAA improve its processes and
controls to ensure that PP&E is consistently and accurately capitalized. That
report also noted that, without substantial changes to FAA’s processes and
controls over recording transactions and reconciling accounts throughout the year,
FAA might not be able to meet future financial statement reporting deadlines.

Although FAA management agreed to correct those deficiencies during FY 2006,
the corrective actions were not implemented effectively. As a result, FAA again
had to devote substantial resources at the end of the year. This year, however, the
CIP balance presented to KPMG in August 2006 contained material errors, and
FAA was not able to complete its review of CIP or to properly state the CIP
balance as of September 30, 2006, before the issuance of the Department’s
Performance and Accountability Report. FAA management was also unable to
represent to KPMG that the CIP balance, reported to be $4.7 billion, was fairly
stated. Accordingly, KPMG could not complete its audit of CIP balances.

In its FY 2006 audit report, KPMG again identified CIP process deficiencies as a
material weakness. Specifically, KPMG noted that FAA lacks adequate policies,
procedures, and controls to monitor its CIP activity and balances in a routine and
timely fashion. KPMG reported that FAA: (1) needs to strengthen accounting
policies and procedures, (2) lacks controls to ensure that CIP transactions are
properly accounted for in a timely manner, (3) does not have a process to ensure
that documentation adequately supports the basis for CIP transactions, and
(4) does not adequately monitor the process to ensure that CIP balances are
routinely reconciled to subsidiary listings and supporting detail.

• Strengthening accounting policies and procedures. KPMG noted that
  FAA’s policies and procedures did not describe how to determine when
  Research and Development costs should be capitalized; treat bulk purchases;
  allocate costs when equipment is deployed to multiple locations; capitalize
                                                                    Attachment
                                                                   Page 5 of 24

  costs of long-term projects when deployments occur over several years;
  account for agency prototypes; address recognition of operational feasibility;
  and expense costs of delayed or postponed projects.

• Ensuring that CIP transactions are properly accounted for in a timely
  manner. KPMG reported that FAA does not have front-end and in-process
  controls to ensure that all CIP projects are accurately and completely
  accounted for in a timely manner. For example, FAA has not established
  adequate processes or controls to ensure that CIP is capitalized to PP&E within
  30 days of being placed in service, as required by FAA policy. KPMG found
  that 96 percent of the items it tested were not capitalized within the 30-day
  period.

  FAA does not have adequate policies and procedures to identify errors and
  make timely corrections to the underlying accounting records. KPMG found
  that even when errors were identified on project activity reports, they were not
  investigated and resolved or reported to senior management. FAA also lacks a
  routine and effective process to identify and correct projects that are
  improperly set up, either as expense or capital activities. In one case, KPMG
  identified a project with a CIP balance of $101 million that should have been
  expensed.

• Ensuring that documentation is maintained that adequately supports the
  basis for CIP transactions. KPMG found that FAA does not have a process
  to ensure that adequate documentation is maintained to support management’s
  decisions and accounting transactions. For example, FAA could not provide
  documentation without spending several days locating supporting evidence.
  When provided, documentation showed clear inconsistencies with the
  classification of assets in the accounting system. KPMG noted a 50 percent
  error rate between documentation provided and data in the accounting system.

  Also, key documentation was not always available. In particular, two
  documents are key to determining when assets have been placed into service;
  however, in numerous instances, those documents were not available.
  Decisions regarding asset classifications were made without adequate
  supporting documentation. For example, KPMG identified over $200 million
  in 8 CIP projects that had been expensed from CIP in FY 2006 but
  subsequently had to be reversed after FAA provided documentation that
  contradicted the initial entry recorded by FAA.

• Monitoring and reconciling CIP balances. KPMG reported that FAA does
  not provide adequate monitoring and supervision of CIP processes and that the
  accounting system lacks controls to ensure that CIP balances are reconciled to
                                                                       Attachment
                                                                      Page 6 of 24

   subsidiary listings and supporting details. KPMG also reported that a lack of
   clear lines of authority and communication among accounting organizations in
   the Office of Financial Management, the Air Traffic Organization, and the
   Office of Regions, Centers, and Operations has led directly to inaccurate or
   untimely accounting for CIP activity.

KPMG made 10 recommendations to correct these deficiencies, and FAA
committed to implement the recommendations, including improving policies and
procedures to ensure that capitalized assets are properly valued and transactions
are recorded in a timely manner; enhancing communications between program
officials and accounting personnel; and conducting a comprehensive evaluation of
CIP balances to make appropriate accounting adjustments.

The lack of controls over CIP-related transactions was one of several concerns
included in last year’s material weakness reporting. This year, KPMG reported
that, except for CIP-related processing, FAA has taken adequate corrective actions
to ensure timely recording of obligations, supporting advances and prepayments,
clearing suspense accounts, reconciling budgetary to proprietary accounts, and
reconciling subsidiary to general ledger account balances. If FAA stays focused
on fixing CIP-related operations, it should be able to produce the same results in
FY 2007. However, we are concerned that this correction effort may become
diverted.

FAA hired a contractor to assist the review of CIP transaction processing.
However, FAA has first directed the contractor to analyze a sample of CIP assets
in order to generate a more reliable estimate of the CIP balance as of
September 30, 2006. FAA then intends to provide this additional information to
KPMG, requesting that KPMG continue auditing the FY 2006 balance and issue a
new report, sometime during FY 2007, providing a restatement on FAA’s
FY 2006 financial statements.

In our view, diverting resources to generate a new estimate of the FY 2006 CIP
balance and to reissue the FY 2006 financial statement audit report will further
delay efforts to fix the CIP process deficiencies and will increase the risk that FAA
will again not be able to correct its underlying material weakness during FY 2007.

Successfully implementing these corrective actions in FY 2007 is critical for two
reasons. First, FAA has stated that its goal is to implement sound financial
management processes. This must include establishing stronger processes to
account for its property. In doing so, FAA will be in a substantially stronger
position to correct the material weakness and obtain a clean opinion on its
financial statements in FY 2007.
                                                                       Attachment
                                                                      Page 7 of 24

Second, the FAA deficiencies may adversely affect DOT’s ability to meet OMB’s
FY 2007 internal control requirements under Circular A-123—the Federal version
of the Sarbanes/Oxley Act. Circular A-123 requires the Department’s leaders to
implement adequate management and financial controls to deliver the best value
with the resources entrusted to the agency. At the end of FY 2007, the
Department will be required, for the first time, to provide a specific assurance that
it has adequate controls to provide reasonable assurance that property is accounted
for properly. The adequacy of FAA’s controls will be key to whether the
Secretary will be able to provide that assurance.

The Department’s Chief Financial Officer also recognizes the importance of
correcting the underlying process deficiencies. She told us that her office will now
closely monitor FAA’s efforts to correct CIP process deficiencies to ensure that
FAA implements timely and effective corrective actions. Given the importance of
correcting these deficiencies, we agree that this is appropriate.

HTF Agencies’ Financial Management, Reporting, and Oversight
Activities
Since the audit of the FY 2003 HTF financial statements, we reported that material
weaknesses existed in internal controls over financial management and reporting
activities in the HTF agencies. During FY 2006, the HTF agencies implemented
significant improvements over several previously reported deficiencies. As a
result, some issues—cleaning up suspense accounts and reconciling the Fund
Balance with Treasury—have been downgraded to reportable conditions for HTF
financial statement reporting. Other issues—implementation of managerial cost
accounting and tracking intragovernmental transactions—were closed.

However, KPMG continued to identify deficiencies in the area of financial
management, reporting, and oversight. These deficiencies include: (1) the
preparation, approval, and processing of journal entries; (2) the preparation and
analysis of the HTF financial statements; (3) the analysis of abnormal account
balances; (4) the analysis of proprietary and budgetary account relationships;
(5) the coordination with non-DOT agencies that receive HTF appropriations
through FHWA; and (6) the estimation and reporting of grant accruals.

• Preparation, Approval, and Processing of Journal Entries. A significant
  number of accounting transactions are recorded into Delphi (the departmental
  accounting system for financial statement compilation) through the use of
  journal entries during FY 2006. The HTF agencies used manual journal entries
  to process routine transactions, such as recording and distributing budget
  authority, recording and reversing accruals, and recording cash draw-downs.
  Use of journal entries to process routine transactions increases the risk of error
  and misstatement as users can enter transactions that do not comply with
                                                                    Attachment
                                                                   Page 8 of 24

   Treasury standard general ledger posting logic. HTF agencies should use
   journal entries to process non-routine transactions, such as recording one-time
   adjustments.

   To ensure a controlled journal-entry process, when appropriate, the HTF
   agencies developed standardized forms to include the name of the preparer,
   reason for the entry, type of supporting documentation provided, and signature
   by the approver. However, key information required on the form was
   frequently missing. KPMG reviewed 183 journal entries and identified
   12 instances where the name of the preparer was not provided, 16 instances
   where the journal entries were not approved before they were recorded in
   Delphi, and 33 instances where either no supporting documentation was
   provided or the documentation provided was insufficient. In addition,
   documentation to support eight journal entries could not be located and three
   journal entries could not be traced to the general ledger.

• Preparation and Analysis of the HTF Financial Statements. KPMG
  identified several concerns associated with compilation of HTF financial
  statements. Specifically, agencies are required to report net cost of operations
  by major programs on the Statement of Net Cost. In addition, OMB asked
  agencies to allocate net cost of operations by the agency’s strategic goals in
  financial statement note disclosures for information purposes. During
  FY 2006, the HTF agencies revised the methodology used to allocate the
  $37 billion net cost of operations by DOT’s strategic goals. However, KPMG
  determined that the new methodology and the allocation results were not
  properly supported. As a result, HTF agencies reported cost allocations by
  three major programs—Federal Aid Highways, Mass Transit, and Other
  programs—in the Statement of Net Cost note disclosure. The information
  about the cost associated with DOT’s strategic goals was instead presented as
  Other Accompanying Information to the financial statements. KPMG also
  found deficiencies in the Management Discussion and Analysis section in the
  financial statements.     For example, HTF agencies initially presented
  information not relevant to the HTF, which had to be eliminated. Also, the
  performance measures had to be revised to conform to OMB requirements.

• Analysis of Abnormal Account Balances. The HTF agencies did not have
  effective processes to identify and resolve abnormal balances at the Treasury
  appropriation fund symbol level. Abnormal balances, such as a credit balance
  in asset accounts or a debit balance in liability accounts, normally result from
  incorrect transaction processing. Each HTF agency has the ability to produce a
  standard report from the Delphi accounting system, entitled “Account Balance
  Exception Report,” but did not routinely produce or review the report,
  document the review, or resolve exceptions identified. According to
                                                                    Attachment
                                                                   Page 9 of 24

   departmental officials, the existing Delphi report was inappropriately designed
   to identify discrepancies within each Treasury symbol. During FY 2006, the
   Department developed an alterative solution to report discrepancies at the
   Treasury symbol level. However, HTF agencies only began using the
   alternative report during the fourth quarter of FY 2006.

• Analysis of Proprietary and Budgetary Account Relationships. Federal
  agencies are required to perform dual-postings to proprietary (e.g., operating
  expenses) and budgetary (e.g., obligations incurred) accounts to record certain
  business transactions. Balances in these two sets of accounts need to be
  reconciled to ensure consistency.        Account relationship tests between
  proprietary and budgetary accounts are an effective tool to ensure that general
  ledger accounts have integrity and that incorrect transactions are detected and
  corrected. To be fully effective, account relationship tests should be performed
  at the Treasury symbol level.

   During FY 2006, HTF agencies developed various account relationship tests—
   both automated and manual. While these tests did not identify material
   discrepancies between proprietary and budgetary accounts, KPMG found that
   HTF agencies did not have effective processes for analyzing and assessing the
   impact of discrepancies on financial statement reporting. For example,

   ¾ FHWA had 21 separate account relationship tests, including one performed
     automatically by Delphi and one still under development at June 30, 2006.
     However, it did not assess the impact of account relationship discrepancies
     at yearend.

   ¾ FTA had 16, and the remaining 4 HTF agencies had 6, separate account
     relationship tests. However, these tests were performed only at the
     appropriations summary level. As a result, discrepancies at the Treasury
     symbol level could have occurred without being detected.

• Coordination with Non-DOT Agencies that Receive HTF Appropriations
  through FHWA. During FY 2006, FHWA took action to resolve accounting
  discrepancies related to the reporting of allocation transfers of budgetary
  authority to 17 other Federal agencies outside DOT. These non-DOT agencies
  receive HTF appropriations through FHWA, such as the Forest Service and the
  Army Corps of Engineers. However, FHWA must further strengthen
  procedures to obtain information from these non-DOT agencies to support
  HTF financial statement assertions related to transactions processed by the
  other agencies that are included in the HTF Consolidated financial statements.
                                                                      Attachment
                                                                    Page 10 of 24

• Estimating and Reporting Grant Accruals. For yearend reporting, the HTF
  agencies calculate and record an estimate ($3.6 billion at September 30, 2006)
  for the amount of work performed by grantee contractors but not yet billed to
  and reimbursed by the Federal agency. During FY 2006, FHWA did not
  ensure the grant accrual estimate included the total time between when work
  was accepted by grantees and when it was reimbursed by FHWA. As a result,
  in October 2006, FHWA had to initiate a special effort to confirm the accrual
  amounts with grantees in all states, which resulted in about a $200 million
  adjustment to the original estimate. Also, FTA made a material mathematical
  error in the calculation of its grant accrual estimate, which resulted in about a
  $600 million adjustment in the HTF financial statements.

KPMG made a series of recommendations to improve financial management,
reporting, and oversight activities in its financial statement audit report, dated
November 6, 2006. FHWA and DOT agreed to implement the recommendations.
Therefore, we are not making additional recommendations in this report.

REPORTABLE CONDITIONS
The following sections describe the reportable conditions that we identified.

Reporting of Earmarked Funds for Federal Transit Administration
Statement of Federal Financial Accounting Standard 27, entitled “Identifying and
Reporting Earmarked Funds,” became effective for FY 2006 reporting. OMB
Circular A-136, “Financial Reporting Requirements,” issued July 24, 2006,
requires both Net Position amounts (Unexpended Appropriations and Cumulative
Results of Operations) attributable to earmarked funds, if material, to be reported
separately on the Balance Sheet and Statement of Changes in Net Position.
Through consultation with OMB, DOT agreed that commingled Treasury accounts
(with a mixture of earmarked and non-earmarked funds) would be reported based
on the preponderance of the funds.

At September 30, 2006, the Federal Transit Administration (FTA) had seven
Treasury accounts that included a mixture of earmarked and non-earmarked funds.
Since they were financed predominantly by non-earmarked funds, they should not
have been reported as earmarked funds. However, these seven accounts were
initially reported as earmarked in the draft DOT Consolidated Balance Sheet and
Statement of Changes in Net Position. This material error occurred because FTA
incorrectly applied the DOT guidance at the summary level instead of at the
Treasury symbol level. Consequently, adjustments totaling $5.2 billion were
required to the net position amounts ($3.5 billion to Unexpended Appropriations
and $1.7 billion to Cumulative Results of Operations) before the FY 2006 DOT
Performance and Accountability Report was issued.
                                                                      Attachment
                                                                    Page 11 of 24

Financial System Controls
Last year, we reported DOT’s financial system controls as a reportable condition.
This included weaknesses in Delphi computer controls and computer security
deficiencies in several FAA, FHWA, and FTA systems that provide financial data
to Delphi. In FY 2006, DOT made significant progress in improving controls over
Delphi. The enhanced operational environment enabled auditors to rely on Delphi
financial management system controls when conducting this year’s financial
statement audits. However, continued improvement is needed, and there are still
deficiencies in FAA, FHWA, and FTA subsidiary financial systems that provide
information to Delphi. Therefore, financial system controls continue to be a
reportable condition.

According to KPMG, four FAA financial systems had access control
vulnerabilities that could diminish the reliability of computerized data and increase
the risk of data destruction or inappropriate disclosure. In addition, KPMG found
that two FTA mission-critical systems, which track grants and feed information to
the Department-wide Delphi financial management system, had access controls
weaknesses that could have a material effect on HTF’s financial statements.
KPMG also found opportunities to improve the FAA, FHWA, and FTA financial
systems security planning, segregation of duties, and service continuity.

KPMG’s audit reports, dated November 3, 2006 (FAA) and November 6, 2006
(HTF), included recommendations to improve financial system controls. The
DOT Chief Financial Officer agreed with the recommendations; therefore, we are
not making any additional recommendations.

DOT Information Security Program
In October 2006, we issued our sixth annual report on DOT’s Information Security
Program and reported a noticeable improvement in tracking, prioritizing, and
correcting security weaknesses—a major concern last year. The Department also
took actions to identify systems containing personally identifiable information for
security protection and provide oversight to major IT investments. However, like
last year, the Department continues to face a challenge in recertifying systems
security.

FY 2007 will be especially challenging for DOT because it must recertify about
230 systems—half of the Department’s total inventory, including many major
financial subsidiary systems. Meanwhile, DOT must upgrade systems security to
meet new Government standards, relocate its Headquarters and more than
75 information systems, and implement a consolidated IT infrastructure in the new
Headquarters building. The consolidated IT operations will require a higher level
of security protection because of the potential impact of disruptions on multiple
                                                                      Attachment
                                                                    Page 12 of 24

Operating Administrations, not just one. However, the plan and schedule to
implement and test this new infrastructure are still evolving, due to a variety of
move-related problems.

We made a series of recommendations to help the Department strengthen its
information security program. The departmental Chief Information Officer agreed
with them. Therefore, we are not making additional recommendations in this
report.

Intragovernmental Transactions
During the audits of the FY 2003 and FY 2004 DOT Consolidated Financial
Statements, we reported a material weakness in the DOT processes and procedures
to reconcile transactions among its Operating Administrations and its transactions
with other Federal agencies. During FY 2005, we found intra-DOT activity of
$402 million ($293 million in assets and $109 million in non-exchange revenue)
that was not eliminated in the DOT Consolidated Financial Statements. Since the
amount was significantly lower than the year before, the issue was downgraded
from a material weakness to a reportable condition.

While DOT continued to make progress during FY 2006, DOT again did not fully
eliminate its intragovernmental activity within DOT in the draft FY 2006 DOT
Consolidated Financial Statements. We found intra-DOT activity of $169 million
($84 million in assets and liabilities and $85 million in non-exchange revenue) that
was not eliminated in the draft DOT Consolidated Financial Statements.

The DOT Chief Financial Officer has advised that the Office of Financial
Management will continue working with the Operating Administrations to
implement new processes and procedures to identify and eliminate
intragovernmental activity during FY 2007. Therefore, we are not making
additional recommendations in this report.

Deobligating Unneeded Funds in the HTF Agencies
Title 31, United States Code, Section 1501, requires amounts to be recorded as an
obligation of the United States only when supported by documentary evidence of a
binding agreement in writing between a Federal agency and another entity
(including an agency) for a purpose authorized by law and executed before the end
of the period of availability. Undelivered orders reflect obligations for goods or
services that have not been delivered or received. DOT financial policy requires
the agencies to monitor their open obligations on a quarterly basis to ensure timely
deobligation of unneeded obligations prior to year end, so that funds could become
available for other use.
                                                                                        Attachment
                                                                                      Page 13 of 24

KPMG sampled 107 Undelivered Orders, totaling $994.2 million, that had no
activity for a period of 1 year or more as of June 30, 2006. KPMG found
14 obligations, totaling $118.6 million, that were invalid and no longer needed
(see details in Table 1).

              Table 1. Unneeded Obligations Detected
    Operating         # of     Amount of       # of                                       Amount of
 Administration* Obligations Obligations Obligations                                     Obligations
                     Tested      Tested     Unneeded                                      Unneeded
                              (in millions)                                              (in millions)
 FHWA                   27          463.1           8                                         $71.7
 FTA                    27          475.2           2                                          37.4
 FMCSA                   3             7.4          3                                            7.4
 FRA                    20           34.2           1                                            2.1
 NHTSA                  20             7.8          0                                              0
 RITA                   10             6.5          0                                              0
  Total                107         $994.2          14                                        $118.6
* FMCSA: Federal Motor Carrier Safety Administration, FRA: Federal Railroad Administration, NHTSA: National
  Highway Traffic Safety Administration, RITA: Research and Innovative Technology Administration


The HTF agencies agreed to deobligate these obligations for the sample items for
FY 2006 year-end reporting.

FAA Grants Management
In our report on the FY 2005 DOT Consolidated Financial Statements, we
reported FAA Grants Management as a Reportable Condition. FAA is responsible
for establishing and maintaining accounting and internal controls over
expenditures related to the Airport Improvement Program (AIP). The program’s
growth (from $2.8 billion to $3.9 billion between FY 2004 and FY 2006),
availability of resources, and reliance on sponsors, among other risks, led to the
potential for waste, fraud, and abuse of Federal funds, especially within the
oversight and monitoring phases of the grants management process.

According to KPMG, FAA’s specific internal control weaknesses in grants
management include: (1) lack of an effective, risk-based approach to oversight
and monitoring of AIP grant sponsorship activities; (2) inadequate policies and
procedures describing the roles and responsibilities of regional managers; and
(3) disproportionate reliance on OMB Circular A–133, “Single Audit Act,” for
assurances that grant recipients are administering Federal funds properly and have
sufficient internal controls. More reliable grants administration and monitoring
processes feature preventive front-end and early-detection controls.
                                                                     Attachment
                                                                   Page 14 of 24

Last year FAA agreed with the KPMG recommendations to implement a
risk-based approach to monitor AIP grants. However, FAA decided to defer the
implementation to FY 2007. According to KPMG, the new grants monitoring
approach was implemented on October 1, 2006, so we are not making any
additional recommendations.

FAA Contract Management
In our report on the FY 2005 DOT Consolidated Financial Statements, we
reported FAA Contract Management as a Reportable Condition because of
weaknesses in the management and oversight of cost-reimbursable and support
service contracts—two significant vehicles used to support modernization of the
air traffic control system. During FY 2006, FAA made progress in both fronts.
For example, FAA reduced the backlog of completed cost-reimbursable contracts
awaiting closeout process, and dissolved one of the multiple-award “umbrella”
programs used to procure support services. The OIG found that the support
service procurement program was not properly structured and FAA would incur
$24 million to $44 million in higher costs if all option years were exercised under
that program.

While FAA has taken steps to enhance controls over support services
procurement, more follow-through actions are needed. In August 2005, the FAA
Administrator issued a directive requiring FAA-wide procurement enhancements.
However, the OIG found that FAA had not implemented Agency-wide oversight
to ensure consistent fulfillment of FAA’s Acquisition Management System
requirements by its diverse procurement workforce. FAA has agreed to
implement an oversight program. Therefore, we are not making any additional
recommendations.

C. COMPLIANCE WITH LAWS AND REGULATIONS
In planning and conducting our audit, we performed limited tests of DOT’s
compliance with laws and regulations, as required by OMB guidance. It was not
our objective to express, and we do not express, an opinion on compliance with
laws and regulations. Our work was limited to testing selected provisions of laws
and regulations that would have a direct and material impact on the financial
statements and be reportable under Generally Accepted Government Auditing
Standards or under OMB guidance. Our work disclosed the following instances of
noncompliance with laws and regulations.
                                                                     Attachment
                                                                   Page 15 of 24

FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
OF 1996
Under FFMIA, we must report whether DOT’s financial management system
substantially complies with Federal requirements and standards. FFMIA requires
agencies to produce timely, auditable financial statements based on data from the
agency’s financial system. KPMG concluded that four FAA and seven HTF
systems were not in compliance for the year ended September 30, 2006. These
key financial systems—which support data entered into Delphi—do not
substantially comply with FFMIA compliance categories listed in OMB Circular
A-127 (section 7), such as implementation of adequate internal controls and
adherence to Computer Security Act requirements. KPMG recommended that
FAA, FHWA, and FTA resolve the weaknesses noted in the key financial systems
used to compile financial statements.

ANTIDEFICIENCY ACT
Title 31, United States Code, Section 1517, provides that an officer or employee of
the U.S Government may not make or authorize an expenditure or obligation
exceeding an amount available in an allotment.             In our report on the
FY 2005 DOT Financial Statements, we reported that FHWA still needed to
resolve a $5 million violation first identified in FY 2003, and FAA needed to
report a $1.9 million violation associated with the Small Community Air Service
program to the President and Congress.

According to KPMG, FHWA resolved the $5 million violation with Treasury in
September 2006. However, FAA still has not reported the $1.9 million violation
to the President and Congress. FAA is working with the Office of the Secretary of
Transportation to report the violation during FY 2007.

IMPROPER PAYMENTS INFORMATION ACT OF 2002 (IPIA)
OMB Circular A-123, Appendix C, issued on August 10, 2006, entitled
“Requirements for Effective Measurement and Remediation of Improper
Payments,” implements the requirements of IPIA and is effective for
FY 2006 reporting. The bulletin defines an improper payment as any payment that
should not have been made or that was made in an incorrect amount under
statutory, contractual, administrative, or other legally applicable requirements.
Incorrect amounts include overpayments and underpayments, payments made to
an ineligible recipient or for an ineligible service, duplicate payments, payments
for services not received, and payments for the incorrect amount.

The bulletin prescribes a four-step approach for use by agencies in evaluating
improper payments: (1) review all programs and identify those susceptible to
significant erroneous payments; (2) statistically estimate the annual amount of
                                                                     Attachment
                                                                   Page 16 of 24

improper payments; (3) implement a plan to reduce erroneous payments; and
(4) report estimates of the annual amount of improper payments and progress in
reducing them.

During FY 2005, DOT reported the results of its review of the 10 programs
susceptible to significant improper payments. The review found no significant
improper payments and did not address payments made by DOT grantees.

During FY 2006, DOT concentrated on testing improper payments made by DOT
grantees under FHWA’s Federal-aid Program, FTA’s formula grants program, and
FAA’s AIP. Among these three Operating Administrations, FHWA was the only
one that was able to statistically estimate the amount of improper payments.
However, due to the constraints of the methodology used, FHWA could not
estimate the annual amount of improper payments made under the Federal-aid
Program. Instead, the estimation was limited to a period of 5 months—about $30
million.

FTA and FAA are still in the early stage of implementing the improper payment
testing requirements. During FY 2006, FAA performed testing of grant payments
made by one airport authority, and FTA tested payments made by two transit
grantees.

DOT (i.e., FHWA, FTA, and FAA) must continue to implement IPIA so that
annual (12-month) estimates are reported, plans are identified and implemented to
reduce erroneous payments, and progress in reducing improper payments can be
reported.

D. CONSISTENCY OF OTHER INFORMATION
The Management Discussion and Analysis, Required Supplementary Information,
Required Supplementary Stewardship Information, and Other Accompanying
Information contain a wide range of data, some of which are not directly related to
the financial statements. We are not required to, and we do not, express an
opinion on this information. As required by OMB guidance, we inquired of
management about the methods of preparing this information, and we compared
this information for consistency with the DOT Consolidated Financial Statements
and other knowledge obtained during the audit of the financial statements. Based
on this work, we found no material inconsistencies with the DOT Consolidated
Financial Statements or nonconformance with OMB guidance.

E. PRIOR AUDIT COVERAGE
Our report on the DOT Consolidated Financial Statements for FY 2005 and
FY 2004 expressed an unqualified opinion and made no new recommendations.
                                                                   Attachment
                                                                 Page 17 of 24

Our report on the DOT Consolidated Financial Statements for FY 2002 and
FY 2001 made one recommendation: that DOT confirm and reconcile intra-
governmental balances with trading partners. DOT must continue to work to
improve the accounting for intra-governmental balances with trading partners,
timely de-obligation of unneeded transactions, and testing of improper payments.
Exhibit B displays the status of the prior year’s and new issues.

Since we issued our report on the DOT Consolidated Financial Statements for
FY 2005 and FY 2004, we issued 19 reports related to the DOT Consolidated
Financial Statements. The reports are listed in Exhibit C.

The Assistant Secretary for Budgets and Programs/Chief Financial Officer
provided comments on a draft of the report (see Appendix). The response agreed
with the material weaknesses and reportable conditions in this report and stated
that corrective actions have already been initiated. Management agreed to provide
a detailed action plan addressing each finding by December 29, 2006.

This report is intended for the information of and use by DOT, OMB, the
Government Accountability Office, and Congress. This report is a matter of
public record, and its distribution is not limited.




Calvin L. Scovel III
Inspector General
                                                                      Attachment
                                                                    Page 18 of 24

EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives for the DOT Consolidated Financial Statements for FY 2006
and FY 2005 were to determine whether (1) principal DOT Consolidated
Financial Statements and accompanying notes are presented fairly, in all material
respects, in conformity with generally accepted accounting principles; (2) DOT
has adequate internal controls over financial reporting, including safeguarding
assets; (3) DOT has complied with laws and regulations that could have a direct
and material effect on the DOT Consolidated Financial Statements or that have
been specified by OMB, including FFMIA; (4) financial information in the
Management Discussion and Analysis, Required Supplementary Information,
Required Supplementary Stewardship Information, and Other Accompanying
Information is materially consistent with the information in the principal DOT
Consolidated Financial Statements; and (5) internal controls ensured the existence
and completeness of reported data supporting performance measures.

DOT is responsible for (1) preparing the DOT Consolidated Financial Statements
for FY 2006 and FY 2005 in conformity with generally accepted accounting
principles; (2) establishing, maintaining, and assessing internal controls to provide
reasonable assurance that broad control objectives of FMFIA are met; (3) ensuring
that DOT financial management systems substantially comply with FFMIA
requirements; and (4) complying with other applicable laws and regulations. DOT
is responsible for maintaining an effective system of internal controls. The
objectives of these controls are explained below.

   • Financial reporting. Transactions are properly recorded, processed, and
     summarized to permit the preparation of financial statements and
     stewardship information in conformity with generally accepted accounting
     principles, and assets are safeguarded against loss from unauthorized
     acquisition, use, or disposition.
   • Compliance with laws and regulations. Transactions are executed in
     accordance with laws governing the use of budget authority and with other
     laws and regulations that could have a direct and material effect on the
     financial statements and any other laws, regulations, and Government-wide
     policies identified by OMB audit guidance.
   • Reliability of Performance Reporting. Transactions and other data that
     support reported performance measures are properly recorded, processed,
     and summarized to permit the preparation of required performance
     information.
To fulfill these responsibilities, we (1) examined, on a test basis, evidence
supporting the amounts and disclosures in the financial statements; (2) assessed


Exhibit A. Objectives, Scope, and Methodology
                                                                      Attachment
                                                                    Page 19 of 24

the accounting principles used and significant estimates made by management;
(3) evaluated the overall presentation of the financial statements; (4) obtained an
understanding and performed limited tests of internal controls related to financial
reporting, compliance with laws and regulations, and performance measures; and
(5) tested compliance with selected provisions of certain laws, including FFMIA.

We did not evaluate all internal controls relevant to operating objectives as
broadly defined by FMFIA, such as those controls relevant to ensuring that
programs achieve their intended results and that resources are used consistent with
agency missions. We limited our internal control testing to controls over financial
reporting and compliance. Because of inherent limitations in internal controls,
misstatements due to error or fraud, losses, or noncompliance may nevertheless
occur and not be detected.

The Government Accountability Office performed agreed-upon procedures at the
Internal Revenue Service on the excise taxes distributed to the HTF and the
Airport and Airway Trust Fund during FY 2006. The Treasury Office of Inspector
General reported on the effectiveness of controls placed in operation over the
Bureau of Public Debt Trust Fund Management Branch and Federal Investments
Branch for the period October 1, 2005, to July 31, 2006, and attained
management’s assurance on the effectiveness of the controls through
September 30, 2006. The Treasury Office of Inspector General also reported on
selected schedules of assets and liabilities of the HTF and the Airport and Airway
Trust Fund prepared by the Bureau of Public Debt Trust Fund Management
Branch.

We did not test compliance with all laws and regulations applicable to DOT. We
limited our tests of compliance to those laws and regulations required by OMB
audit guidance that we deemed applicable to the DOT Consolidated Financial
Statements for the years ended September 30, 2006, and September 30, 2005. We
caution that noncompliance may occur and not be detected by these tests and that
such testing may not be sufficient for other purposes.

The Chief Financial Officers of DOT and each Operating Administration have
been assigned the responsibility to address the weaknesses identified in this report.
Management’s response to the findings and recommendations in this report is
contained in the Appendix.

We performed our work in accordance with Generally Accepted Government
Auditing Standards and OMB Bulletin 06-03, “Audit Requirements for Federal
Financial Statements.”




Exhibit A. Objectives, Scope, and Methodology
                                                            Attachment
                                                          Page 20 of 24

EXHIBIT B. STATUS OF PRIOR YEAR’S AND NEW ISSUES

            Issue                  As Reported             As Reported
                                    9/30/2005               9/30/2006
  Timely Processing of and      Material Weakness      Material Weakness
  Accounting for the FAA
  Construction-in-Progress
  Transaction
  HTF Agencies’ Financial       Material Weakness      Material Weakness
  Management, Reporting, and
  Oversight Activities
  Financial Oversight of        Material Weakness      Reportable Condition
  Highway Grants                                       (Deobligating
                                                       Unneeded Funds)
  Reporting of Earmarked                 ----          Reportable Condition
  Funds for FTA
  Financial System Controls     Reportable Condition   Reportable Condition
  DOT Information Security      Reportable Condition   Reportable Condition
  Program
  Intragovernmental             Reportable Condition   Reportable Condition
  Transactions
  FAA Grants Management         Reportable Condition   Reportable Condition
  FAA Contract Management       Reportable Condition   Reportable Condition
  MARAD Oversight of Title XI   Reportable Condition   Resolved
  Loan Guarantees
  Federal Financial             Noncompliance          Noncompliance
  Management Improvement
  Act of 1996
  Antideficiency Act            Noncompliance          Noncompliance
  Improper Payments                   ----             Noncompliance
  Information Act of 2002
  Federal Managers’ Financial   Noncompliance          Management Letter
  Integrity Act
  Government Performance        Noncompliance          Management Letter
  and Results Act
  FAA Franchise Fund Enabling   Noncompliance          Resolved
  Legislation




Exhibit B. Status of Prior Year’s and New Issues
                                                            Attachment
                                                          Page 21 of 24

EXHIBIT C. FINANCIAL-RELATED REPORTS

       Report Title              Report Number       Date Issued
Audit of Special-Purpose        FI-2006-015      November 18, 2005
Financial Statements for
Fiscal Year 2005, Fiscal
Year 2004
Independent Accountant's        FI-2006-017      December 2, 2005
Agreed-Upon Procedures
for Intragovernmental
Activity and Balances
FAA Has Opportunities To        AV-2006-021      December 7, 2005
Reduce Academy Training
Time and Costs by
Increasing Educational
Requirements for Newly
Hired Air Traffic Controllers
Internal Controls Over the      AV-2006-032      January 20, 2006
Emergency Disaster Relief
Transportation Services
Contract
Inspector General Review        FI-2006-033      February 1, 2006
of Fiscal Year 2005 Drug
Control Funds
FAA Telecommunications          AV-2006-047      April 27, 2006
Infrastructure Program:
FAA Needs To Take Steps
To Improve Management
Controls and Reduce
Schedule Risks
Report on the Air Traffic       AV-2006-050      June 21, 2006
Organization's
Management Controls Over
Credit Hours
Internal Controls Over          AV-2006-051      June 30, 2006
Payments for Emergency
Disaster Relief
Transportation Services
Use of Airport Revenues by      AV-2006-056      August 3, 2006
the Greater Orlando
Aviation Authority
Mississippi Department of       MH-2006-065      September 6, 2006
Transportation's Award of
Selected Hurricane Katrina
Emergency Repair
Contracts




Exhibit C. Financial-Related Reports
                                                         Attachment
                                                       Page 22 of 24

       Report Title            Report Number       Date Issued
Federal Aviation              FI-2006-072      September 21, 2006
Administration's RESULTS
National Contracting
Service
Follow-Up Audit Report on     AV-2006-074      September 28, 2006
FAA's Management Of and
Controls Over
Memorandums of
Understanding
Quality Control Review of     QC-2006-076      September 29, 2006
the Report on Controls
Over the Enterprise Service
Center's Delphi Financial
Management System
DOT's Information Security    FI-2007-002      October 23, 2006
Program
Quality Control Review of     QC-2007-005      November 9, 2006
Audited Financial
Statements for Fiscal Year
2006 and Fiscal Year 2005:
Saint Lawrence Seaway
Development Corporation
Quality Control Review of     QC-2007-006      November 13, 2006
the Audited Financial
Statements for Fiscal Year
2006: FAA Franchise Fund
Quality Control Review of     QC-2007-009      November 14, 2006
Audited Financial
Statements for Fiscal Year
2006 and Fiscal Year 2005:
Federal Aviation
Administration
Quality Control Review of     QC-2007-008      November 14, 2006
Audited Financial
Statements for Fiscal Year
2006: Highway Trust Fund
Top Management                PT-2007-004      November 15, 2006
Challenges




Exhibit C. Financial-Related Reports
                                                       Attachment
                                                     Page 23 of 24

APPENDIX. ASSISTANT SECRETARY FOR BUDGET AND
PROGRAMS/CHIEF FINANCIAL OFFICER RESPONSE TO
AUDIT REPORT




Appendix. Assistant Secretary for Budget and Programs/Chief
Financial Officer Response to Audit Report
                                                       Attachment
                                                     Page 24 of 24




Appendix. Assistant Secretary for Budget and Programs/Chief
Financial Officer Response to Audit Report
